No. 19-563
ITT tije 'upreme Court of tie aluiteb iiptate5
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL.,
Petitioners

v.
PATRICK J. COLLINS, ET AL.
Respondents.
On Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit
BRIEF OF AMICI CURIAE BRYNDON FISHER,
BRUCE REID, AND ERICK SHIPMON IN
SUPPORT OF NEITHER PARTY
ROBERT C. SCHUBERT
Counsel of Record
NOAH M. SCHUBERT
SCHUBERT JONCKHEER
& KOLBE LLP
Three Embarcadero Ctr Ste 1650
San Francisco, CA 94111
(415) 788-4220
rschubert@sjk.law
Counsel for Amici Curiae
Bryndon Fisher, Bruce Reid,
and Erick Shipmon

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

SUMMARY OF THE ARGUMENT

2

ARGUMENT

4

A. The Shareholder Claims Are
Derivative.

4

The Injury Alleged in this Case

5

The Applicable Law on Resolving
Whether a Claim Is Direct or
Derivative.

6

The Claims Here Are Derivative.

8

B. HERA's Succession Clause Does Not
Bar Shareholder Derivative Claims
Where FHFA Faces a Manifest
Conflict of Interest

12

The Structure of HERA Reflects that
Derivative Suits Are Permitted
Where FHFA Faces a Manifest
Conflict of Interest.

12

HERA's Structure and Other
Provisions Confirm that the
Succession Clause Does Not Present
an Absolute Bar to All Shareholder
Claims.

17

ii
3. Construing HERA to Bar All
Derivative Claims Would Raise
Serious Constitutional Issues.
CONCLUSION

18
25

iii
TABLE OF AUTHORITIES
Page
Cases
Agostino v. Hicks,
845 A.2d 1110 (Del. Ch. 2004)

8

Alabama By-Products Corp. v. Ede & Co. ex.
Rel. Shearso,
657 A.2d 254 (Del. 1995)

9

Bartlett v. Bowen,
816 F.2d 695 (D.C. Cir. 1987)

19, 23

Battaglia v. General Motors,
169 F.2d 254 (2d Cir. 1948)

24

Bob Jones v. Simon,
416 U.S. 725 (1974)

22

Bowen v. Mich. Academy of Family
Physicians,
476 U.S. 667 (1986)

22

Branch v. FDIC
825 F. Supp. 384 (D. Mass. 1993)

15

Burks v. Lasker,
441 U.S. 471 (1979)

6

Califano v. Sanders,
430 U.S. 99 (1977)

19

iv
Cent. Bank, N.A. v. First Interstate Bank,
NA.,
511 U.S. 164 (1994)

17

Citigroup Inc. v. AHW Inv. P'ship,
140 A.3d 1125 (Del. 2016)

10

Delta Savings Bank v. United States,
265 F.3d 1017 (9th Cir. 2001)

15

El Paso Pipeline GP Co. v. Brinckerhog
152 A.3d 1248 (Del. 2016)

8

First Hartford Corp. Pension Plan & Trust v.
United States,
194 F.3d 1279 (Fed. Cir. 1999)

14

Franchise Tax Bd. of Cal. v. Alcan Aluminum,
Ltd.,
493 U.S. 331 (1990)

6

Gentile v. Rosette,
906 A.2d 91 (Del. 2006)
In re Fed. Home Loan Mtg. Corp. Deriv. Litig.,
643 F. Supp. 2d 790 (E.D. Va. 2009)

7, 8
15

J.P. Morgan Chase & Co. S'holder Litig.,
906 A.2d 808 (Del. Ch. 2005)

7

Kamen v. Kemper Fin. Servs., Inc.,
500 U.S. 90 (1991)

6

Lightfoot v. Cendant Mortg. Corp.,
137 S. Ct. 553 (2017)

17

V

Merrill Lynch Pierce Fenner & Smith Inc. v.
Dabit,
547 U.S. 71 (2006)

16

Nat'l Trust for Historic Pres. v. FDIC
21 F.3d 469 (1994)

20

Pareto v. FDIC
139 F.3d 696 (9th Cir. 1998)

15

Perry Capital LLC ex rel. Inv. Funds v.
Mn uchin,
864 F.3d 591 (D.C. Cir. 2017)
Roberts v. Fed Hous. Fin. Agency,
889 F.3d 397 (7th Cir. 2018)

11, 20
7, 11

Schoon v. Smith,
953 A.2d 196 (Del. 2008)

9

Simmons v. Miller,
544 S.E.2d 666 (Va. 2001)

8

Small v. United States,
544 U.S. 385 (2005)

21

South Carolina v. Regan,
465 U.S. 367 (1984)

19

Tooley v. Donaldson Lufkin & Jenrett, Inc.,
845 A.2d 1031 (Del. 2004)
Webster v. Doe,
486 U.S. 592 (1988)

7, 8
20

vi
Statutes
12 U.S.C. § 1821

13

12 U.S.C. § 4617

passim

5 U.S.C. § 702

5, 8

Other Authorities
J. Nowak, R. Rotunda & J. Young,
CONSTITUTIONAL LAW (3d ed. 1986)

24

M. REDDISH, FEDERAL JURISDICTION: TENSIONS
IN THE ALLOCATION OF JUDICIAL POWER
P.R. Gunther, Congressional Power to Curtail
Federal Court Jurisdiction: An Opinionated
Guide to the Ongoing Debate, 36 Stan. L.
Rev. 895 (1984)

24

24

Treatises
Wright & Miller et al., Fed. Prac. & Proc. §
1821

6

INTEREST OF AMICI CURIAE'
Bryndon Fisher and Bruce Reid are each shareholders in both Fannie Mae and Freddie Mac, and
Erick Shipmon is a shareholder in Fannie Mae. Amici are plaintiffs in actions pending in the United
States Court of Federal Claims (Case Nos. 13-608C,
14-152C) in which, as shareholders, they assert derivative claims on behalf of Fannie Mae and Freddie
Mac against the United States for (i) an unlawful
taking without just compensation in violation of the
Fifth Amendment of the U.S. Constitution; (ii) an illegal exaction in violation of the Fifth Amendment of
the U.S. Constitution; and (iii) breach of fiduciary
duty. The injury upon which amid's claims are
based is the harm to Fannie Mae and Freddie Mac
(the "GSEs") caused by the Third Amendment.
Amid are the only shareholders with claims
pending in the Court of Federal Claims who have
consistently and exclusively asserted derivative
claims on behalf of Fannie Mae and Freddie Mac in
connection with the harm caused by the Third
Amendment.
This case is of particular interest to amicibecause
the questions presented may have a direct and
potentially dispositive impact on amici's pending
claims against the United States. Specifically, one
question now before the Court is whether the
All parties consented to the filing of this brief. See Sup.
Ct. R. 37.3(a). No counsel for a party has authored this
brief in whole or in part, and no person other than amid
curiae and their counsel has made a monetary
contribution to the preparation or submission of this brief.
See Sup. Ct. R. 37.6.
1

2
"succession clause" of the Housing and Economic Recovery Act of 2008 ("HERA"), 12 U.S.C.
§ 4617(b)(2)(A), precludes shareholders of Fannie
Mae and Freddie Mac from challenging the Third
Amendment. If the Court decides that derivative
claims relating to the Third Amendment are barred
by the succession clause, then amid's pending
claims would likely be barred as well.
Moreover, this case raises important constitutional questions, including the circumstances in
which Congress may, by statute, deny injured parties
any judicial forum for a constitutional claim. The
resolution of this important issue will have a direct
impact on amid's constitutional claims pending in
the Court of Federal Claims.
SUMMARY OF THE ARGUMENT
One question before the Court is whether the
"succession clause" of the Housing and Economic Recovery Act of 2008 ("HERA"), 12 U.S.C.
§ 4617(b)(2)(A), precludes shareholders of Fannie
Mae and Freddie Mac from challenging the Third
Amendment. In order for the Court to reach this
question, however, it would first have to reverse the
court of appeals' holding that the shareholders'
claims relating to the Third Amendment are direct.
On this threshold question of whether shareholder
claims relating to the Third Amendment are direct or
derivative, the amid and the Government agree:
given the nature of the claims asserted, the injury
upon which the shareholders' claims are based, and
the available remedies, the claims are derivative.

3
From there, the amici and the Government diverge. The Government argues that HERA's
succession clause displaces established corporate law
under which shareholders may pursue a derivative
action when those in control of the corporation face a
manifest conflict of interest in deciding whether to
bring suit. HERA's text and history, however, reveals
no Congressional intent to displace longstanding
corporate law permitting shareholders to bring derivative suits when the parties in control of a corporation face a conflict of interest. To the contrary,
the origin of the succession clause reflects Congress's
intent to preserve such shareholder rights under
those circumstances.
Specifically, Congress copied HERA's succession
clause from the Financial Institutions Reform,
Recovery, and Enforcement Act of 1989 ("FIRREA"),
which courts have consistently construed to permit
derivative actions during a conservatorship or
receivership of a bank where the conservator or
receiver faces a manifest conflict of interest that
prevents the conservator or receiver from objectively
determining whether to bring suit. Rather than draft
HERA to diverge from this established, existing law,
Congress adopted the precise operative terms from
FIRREA, thereby adopting existing law that
construed those operative terms.
Moreover, the Government's construction of
HERA would raise serious constitutional issues. If
the succession clause were construed to bar all
the
derivative suits on behalf of Fannie Mae and Freddie
Mac, including amici's takings and illegal exaction
claims pending in the Court of Federal Claims, it
would deny shareholders any remedy for the

4
Government's unconstitutional actions. The court of
appeals recognized this problem with respect to the
shareholders' claim that the structure of the FHFA
violates Article II, §§ 1 and 3 of the Constitution. On
that issue, the court of appeals correctly held that
HERA's succession clause could not bar such a constitutional claim.
Finally, this Court has never directly decided
whether Congress may completely foreclose all
judicial remedies for a constitutional claim. Lower
courts and commentators agree that Congress cannot
constitutionally do so. And, at a minimum, there
would have to be a "heightened showing" that
Congress specifically intended to "deny any judicial
forum for a colorable constitutional claim." App.,
55a-56a (quotations omitted). The Government has
not, and could not have, made such a showing here.
ARGUMENT
A. The Shareholder Claims Are Derivative.
Although the questions presented in this case do
not include whether the shareholders' claims are direct or derivative, the Court would have to find that
the claims are derivative to determine whether
HERA's succession clause bars them. The
Government argues that the court of appeals erred in
determining that certain shareholders' claims are
direct. Pet. 21. On this question, amid agree with the
Government.
The court of appeals sidestepped established law
that resolves whether claims are derivative or direct,
focusing instead on the APA's broad grant of stand-

ing for parties who are "adversely affected or aggrieved by agency action." This holding, which conflicts with the holdings of multiple other circuit
courts addressing the same issue, is incorrect.
1. The Injury Alleged in this Case.
The court of appeals held that shareholders'
standing derived from 5 U.S.C. § 702, which permits
a person "adversely affected or aggrieved by agency
action" to obtain judicial review. The only "adverse
effect" the court of appeals identified, on which it
based its decision that the shareholders' claims are
direct, was that shareholders "were excluded from
the GSEs' profits." Pet. App. 29a.
The reference to being "excluded from the GSE's
profits" refers to the effect of the Third Amendment,
which required the GSEs to hand over to Treasury
their positive net worth each quarter, minus a small
capital cushion. Put another way, the property the
Government seized through the Third Amendment is
simply the GSEs' rights to their future earnings.
Although the court of appeals characterized the
injury as an "exclus[ion] from the GSEs' profits," the
terms of the Third Amendment directed the GSEs to
turn over their entire net worth to the Government
at the end of each quarter. The transactions at issue
are between the GSEs and the Government. No
money or other property has been taken directly
from the shareholders. No harm has been inflicted on
shareholders that is distinct from the property and
money taken from the GSEs.

6
2. The Applicable Law on
Resolving Whether a Claim
Is Direct or Derivative.
Where a shareholder's claims arise under federal
law (as with shareholders' APA claims here), federal
law governs whether the claims are direct or derivative. Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90,
97 (1991) ("[A]ny common law rule necessary to effectuate a private cause of action ... is necessarily
federal in character."); see also Wright & Miller et
al., Fed. Prac. & Proc. § 1821 ("Mil suits in which the
rights being sued upon stem from federal law, federal law will control the issue whether the action is derivative.").
Under federal law, however, there is a "presumption that state law should be incorporated into
federal common law" unless doing so in a particular
context "would frustrate specific objectives of the
federal programs." Kamen, 500 U.S. at 98. This presumption "is particularly strong in areas in which
private parties have entered legal relationships with
the expectation that their rights and obligations
would be governed by state-law standards." Id. "Corporation law is one such area." Id.; see also Burks v.
Lasker, 441 U.S. 471, 478 (1979) ("Congress has never indicated that the entire corpus of state corporation law is to be replaced simply because a plaintiffs
cause of action is based upon a federal statute.").
In any event, in resolving whether a claim is
direct or derivative, federal law aligns with Delaware
law. Franchise Tax Bd. of Cal. v. Alcan Aluminum,
Ltd., 493 U.S. 331, 336-37 (1990) (holding that only
"shareholder[s] with a direct, personal interest in a

7
cause of action," rather than "injuries [that] are entirely derivative of their ownership interests" in a
corporation, can bring actions directly").2
The leading Delaware decision as to whether
claims are direct or derivative is Tooley v. Donaldson
Lufkin & Jenrett, Inc., 845 A.2d 1031 (Del. 2004).
There, the Delaware Supreme Court held that the
two core questions relevant to distinguishing
between direct and derivative claims are "(1) who
suffered the alleged harm (the corporation or the
suing stockholders, individually); and (2) who would
receive the benefit of any recovery or other remedy
(the corporation or the stockholders, individually)."
Id. at 1033.
With respect to the first prong of Tooley—who
suffered the alleged harm, "claims of corporate overpayment are treated as causing harm solely to the
corporation, and thus, are regarded as derivative."
Gentile v. Rosette, 906 A.2d 91, 99 (Del. 2006); J.P.
Morgan Chase & Co. Sholder• Litig., 906 A.2d 808,
818 (Del. Ch. 2005) (claim for corporate overpayment
is derivative). Both shareholders and the company
may be harmed by a single transaction, but the relevant question in determining if a shareholder has a
direct claim is whether "an injury is suffered by the
shareholder that is not dependent on a prior injury
to the corporation." Agostino v. Hicks, 845 A.2d 1110,
Shareholders' claims concerning Fannie Mae and
Freddie Mac are governed by Delaware and Virginia
law, respectively, because their corporate charters so
designate. Roberts v. Fed. Hous. Fin. Agency, 889
F.3d 397, 408-09 (7th Cir. 2018).
2

8
1122 (Del. Ch. 2004); El Paso Pipeline GP Co. v.
Brinckerhaff; 152 A.3d 1248, 1260 (Del. 2016) (relevant question is whether the stockholder "can prevail
without showing an injury to the corporation") (quoting Tooley, 845 A.2d at 1039).
Of course, shareholders are, in some sense, always adversely affected by corporate overpayments,
as overpayments reduce the value of shareholders'
interest in the company. But, such "dilution in value
of the corporation's stock ... is merely the unavoidable result ... of the reduction in value of the entire
corporate entity." Gentile, 906 A.2d at 99. Such a
harm, although real, is derivative.
The Tooley framework governs whether the
claims here are direct or derivative.3
3. The Claims Here Are Derivative.
The court of appeals' analysis began, correctly, by
holding, consistent with Tooley, that "Rio decide
whether" the shareholders' claims are derivative, "we
begin with the cause of action." App., 27a.
The court of appeals then pointed to the APA's
language affording a remedy to "[a] person suffering
legal wrong ... or adversely affected or aggrieved by
agency action." Id. (quoting 5 U.S.C. § 702). The
court reasoned that because shareholders suffered an
"injury in fact" and are "within the zone of interests"
The law of Virginia, the state in which Freddie Mac
is incorporated, is consistent with Tooley. See
Simmons v. Miller, 544 S.E.2d 666, 674 (Va. 2001).
3

9
of the APA, that therefore, their claim "is a direct
claim." Id. 28a-29a. The court of appeals did not
mention, let alone apply, the Tooley framework to
resolve whether the APA claims are direct or derivative.
The court of appeals erred by failing to recognize
that the mere fact that a shareholder meets the basic
requirements for alleging an "injury in fact" does not
resolve whether the shareholder's claim is direct or
derivative. Delaware law affords standing to
shareholders to bring derivative lawsuits in part
because a shareholder's "status as a shareholder
provides an interest and incentive to obtain legal
redress for the benefit of the corporation." Alabama
By-Products Corp. v. Ede & Co. ex. Rel. Shearso, 657
A.2d 254, 265 (Del. 1995). The equitable standing
rule for derivative actions "recognize[s] the truth
that the stockholders are ultimately the only
beneficiaries; that their rights are really, though
indirectly, protected by remedies given to the
corporation ...." Schoon v. Smith, 953 A.2d 196, 201
n.10 (Del. 2008) (quotation omitted; emphasis in
original).
Hence, all shareholders who assert derivative
claims meet the minimum requirement of "injury in
fact"; that is the injury that confers them standing to
sue derivatively. However, that shareholders suffer,
indirectly at least, some minimal "injury in fact"
whenever the corporation suffers an injury cannot
mean that shareholders always have a direct claim
whenever their interests are negatively affected.
Were that the case, derivative claims could always be
converted to direct claims. Tooley and other
abundant authority confirm that a shareholder

10
showing an injury-in-fact, in the abstract, isn't
enough to establish a direct claim; the shareholder
must show an injury that is distinct from the injury
to the company, or that a contract or statute
specifically affords a remedy to the shareholder, to
the exclusion of the company. The APA, however,
confers no right or cause of action specifically on
shareholders. Instead, it merely states a general
injury-in-fact requirement. That is not the same as a
statute that, by its terms, confers a remedy
specifically upon shareholders. Cf. Citigroup Inc. v.
AHW Inv. P's.hip, 140 A.3d 1125, 1140 (Del. 2016).
In short, because there is no express statutory
provision in the APA affording shareholders the
right to challenge actions that primarily affect the
corporation, Tooley provides the relevant framework
for resolving whether the shareholders' APA claims
are direct or derivative.
Turning to the first prong of Tooley, the injury
shareholders allege is that through the Third
Amendment, the GSEs' profits were diverted permanently to the Government. The property the Government took through the Third Amendment was, specifically, the GSEs' future net earnings. The Third
Amendment no doubt indirectly adversely affected
Fannie's and Freddie's shareholders, but such effects
were the "unavoidable result" of the reduction in
value to the GSEs that occurred as a result of the
Government taking all of the GSEs' future net
profits. The injury occurred to the GSEs, which are
the entities that paid the money over to the
Government as required by the Third Amendment.
Had the GSEs not been required by the Third
Amendment to pay all their net profits to the

11
Government, the shareholders would not have been
injured. Because the shareholders' injuries are dependent upon the prior injury to the GSEs, their
claims are derivative.
With respect to the second prong of Tooley—who
would receive the benefit of any recovery—the recovery here would flow to the GSEs since the GSEs are
the entities which paid the net worth sweep to the
Government.
Two courts of appeal have held, contrary to the
court of appeals here, that the shareholders' claims
predicated on the Third Amendment are derivative.
The Seventh Circuit in Roberts observed that
shareholders' complaint was that "the net worth
dividend illegally dissipated corporate assets by
transferring them to the Treasury," which is a
"classic derivative claim 1]." 889 F.3d at 409. The
essential harm described in Roberts is the same as
here: the Third Amendment unlawfully transferred
the GSEs' assets to the Government.
The D.C. Circuit reached a similar conclusion
with respect to shareholders' claim for breach of fiduciary duty. Perry Capital LLC ex rel. Inv. Funds v.
Mnuchin, 864 F.3d 591, 626-27 (D.C. Cir. 2017).
That court, applying Tooley, emphasized the remedies the shareholders sought, including rescission of
the Third Amendment and a declaration that the
Third Amendment was not in the best interests of
the GSEs was relief that would accrue directly to the
GSEs, not their shareholders. Id.

12
The decisions of the Seventh and D.C. Circuits
were correct and applied the proper analytical
framework. The court of appeals' decision below is in
error.
B. HERA's Succession Clause Does Not Bar
Shareholder Derivative Claims Where FHFA
Faces a Manifest Conflict of Interest.
Proceeding from the premise that the shareholders' claims are derivative—a proposition with which
amid agree—the Government argues those
derivative claims are barred by the "succession
clause" of HERA, 12 U.S.C. § 4617(b)(2)(A)(i). The
Government argues that this clause abrogates
background principles of corporate law and categorically precludes all derivative suits on behalf of
Fannie and Freddie regardless of how serious a
conflict of interest the FHFA faces in deciding
whether to bring suit. The Government, is wrong.
1. The Structure of HERA Reflects that
Derivative Suits Are Permitted Where
FHFA Faces a Manifest Conflict of
Interest.
When Congress enacted HERA, it did not write
on a blank slate. Instead, HERA borrows directly
from a substantively identical provision of the Financial Institutions Reform, Recovery, and Enforcement Act of 1989 ("FIRREA").
FIRREA provides that the FDIC:
shall, as conservator or receiver, and by operation of law, succeed to ... all rights, titles, pow-

13
ers, and privileges of the insured depository
institution, and of any stockholder, member,
accountholder, depositor, officer, or director of
such institution with respect to the institution
and the assets ofthe institution.
12 U.S.C. § 1821(d)(2)(A)(i) (emphasis added).
HERA's succession clause provides that FHFA:
shall, as conservator or receiver, and by operation of law, ... succeed to ... all rights, titles,
powers, and privileges ofthe regulated entity,
and of any stockholder, officer, or director of
such regulated entity with respect to the regulated entity and the assets ofthe regulated entity.
12 U.S . C. § 4617(b) (2)(A) (i) (emphasis added).
HERA's succession clause is substantively
identical to FIRREA's succession clause. A few words
are changed to identify the parties to whom the
clause applies—HERA, for example, refers to the
"regulated entity" (i.e., Fannie Mae and Freddie
Mac), while FIRREA referred to an "insured depository institution." But, as reflected in the emphasized
statutory provisions quoted above, the substance of
the succession clause in the two statutes is identical,
word-for-word.
Critically, at the time Congress enacted HERA,
FIRREA's succession clause did not displace existing
corporate law pursuant to which shareholders may
maintain derivative suits where the company's

14
managers or directors face a manifest conflict of
interest.
The leading case is a landmark Federal Circuit
decision, First Hartford Corp. Pension Plan & Trust
v. United States, 194 F.3d 1279, 1282-84 (Fed. Cir.
1999). There, a bank shareholder alleged the FDIC
had breached contracts with the bank and committed
unconstitutional takings by raising bank capital requirements during receivership beyond the levels to
which the FDIC had previously agreed. The Court of
Federal Claims held that FIRREA's succession
clause precluded shareholders from maintaining any
derivative claims. Id. at 1294. The Federal Circuit reversed, holding that where the FDIC faces a manifest conflict of interest in deciding whether to sue,
shareholders may maintain a derivative suit notwithstanding FIRREA's succession clause. The court
explained:
We agree with the Court of Federal Claims
that, as a general proposition, the FDIC's
statutory receivership authority includes the
right to control the prosecution of legal claims
on behalf of the insured depository institution
now in its receivership. However, the very object of the derivative suit mechanism is to
permit shareholders to file suit on behalf of a
corporation when the managers or directors of
the corporation, perhaps due to a conflict of interest, are unable or unwilling to do so, despite
it being in the best interests of the corporation.

Id. at 1295. The Federal Ciraiit found that such a
manifest conflict of interest existed because "FDIC

15
was asked to decide on behalf of the depository
institution in receivership whether it should sue the
federal government based upon a breach of contract,
which, if proven, was caused by the FDIC itself." Id.

First Hartford reflects established law under
FIRREA. The Ninth Circuit reached the same conclusion prior to the enactment of HERA in Delta
Savings Bank v. United States, 265 F.3d 1017, 102224 (9th Cir. 2001) (permitting derivative suit notwithstanding FIRREA succession clause given "significant and manifest" conflict of interest FDIC faced
in bringing lawsuit "against one of its closely-related,
sister agencies") In re Fed. Home Loan Mtg. Corp.
Deriv. Litig., 643 F. Supp. 2d 790, 797-98 (E.D. Va.
2009) (recognizing conflict of interest exception but
finding no conflict); Branch v. FDIC 825 F. Supp.
384, 404-05 (D. Mass. 1993) (FIRREA "does not alter
the settled rule that shareholders of failed national
banks may assert derivative claims").
Although some courts have recognized that
FIRREA's succession clause transfers to the FDIC
the right to bring derivative claims in general,4 no
court has rejected First Hartford's holding that
FIRREA preserved corporate law that permits
shareholders to pursue derivative claims where the
4

See, e.g., Pareto v. FDIC 139 F.3d 696, 700-01 (9th

Cir. 1998) (holding FIRREA's succession clause
precludes derivative suits in general but declining to
consider "what claims ... interested parties may have
against the FDIC should it commit some
wrongdoing" because "[t]hat issue [was] not before
[the court]").

16
entity managing the company (be it a board of
directors, conservator, receiver, or someone else)
faces a conflict of interest.
Congress copied the succession clause from
FIRREA into HERA, and with it, adopted the
established jurisprudence that the succession clause
does not preclude derivative lawsuits in the event of
a manifest conflict of interest. Had Congress intended to displace equitable principles underlying
derivative claims and categorically preclude all derivative claims regardless of any conflict of interest,
it could have done so in HERA. Congress chose not
to. Congress's decision to borrow FIRREA's
succession clause word-for-word is powerful evidence
that Congress intended for HERA to be construed
consistent with the established judicial construction
of FIRREA. Merrill Lynch Pierce Fenner & Smith
Inc. v. Dabit, 547 U.S. 71, 85 (2006) ("[W]hen judicial
interpretations have settled the meaning of an
existing statutory provision, repetition of the same
language in a new statute indicates ... the intent to
incorporate its ... judicial interpretations as well.")
(internal quotations omitted).5

The Government argues (Gov. Br. 32) that
"Congress's failure to overturn an intermediate
court's erroneous interpretation of a statute does not
demonstrate that Congress meant to ratify that
error." The case upon which it relies for this
argument, however, concerned an amendment to an
existing statute, not Congress's decision to copy
provisions from one statute to another. See Cent.
Bank, N.A. v. First Interstate Bank, NA., 511 U.S.
5

17

2. HERA's Structure and Other Provisions
Confirm that the Succession Clause
Does Not Present an Absolute Bar to All
Shareholder Claims.
Even aside from statutory context, the
Government's construction of HERA's succession
clause—leaving shareholders with zero rights—is
untenable in light of the structure of HERA, as well
as its other provisions. Multiple provisions of HERA
confirm that § 4617(b)(2)(A) cannot categorically
extinguish "all" shareholders' rights. For example,
HERA expressly provides that stockholders retain
important economic rights, including rights to future
distributions and to participate in a statutory claims
process regarding the GSEs' residual assets. See 12
U.S.C. § 4617(b)(2)(K)(i); 12 U.S.C. § 4617(c)(1). If
HERA transferred "all" stockholder "rights, titles,
powers and privileges" to FHFA without exception
164, 186 (1994). Moreover, the Government's
argument that First Hartford and Delta Savings did
not establish a "settled meaning" of FIRREA again is
not supported by the case upon which the
Government relies, Lightfoot v. Cendant Mortg.
Corp., 137 S. Ct. 553 (2017). In Lightfoot, the prior
decisions construing statutory language "did not
speak to" the interpretive question or contained only
"brief, ambiguous statements" concerning the
statute. Id. at 563-64. In contrast, here, First
Hartford and Delta Savings addressed head-on the
precise language that Congress copied from FIRREA
to HERA. There is ample basis to infer Congress
intended the two states to be construed consistently.

18
(which it did not), then the stockholders' rights to residual assets would accrue to FHFA, and there would
have been no need to include stockholders in any
claims process. See Branch, 825 F. Supp. at 404-05
(analyzing similar terms of FIRREA to hold that
"despite its strong language, [the succession clause of
FIRREA] does not transfer all incidents of stock
ownership").
Similarly, HERA expressly provides that during
conservatorship, a "regulated entity" may sue "for an
order requiring the Agency to remove itself as conservator." 12 U.S.C. § 4617(a)(5)(A). Since FHFA controls Fannie and Freddie during conservatorship and
cannot sue itself, this provision would be meaningless if HERA transferred all of the GSEs' rights to
FHFA.
3. Construing HERA to Bar All Derivative
Claims Would Raise Serious
Constitutional Issues.
Any construction of HERA that categorically
wipes out all rights of shareholders would raise
serious constitutional concerns because it would
effectively preclude judicial review of constitutional
violations. The Court has explained:
[It is a] well-established principle that when
constitutional questions are in issue, the
availability of judicial review is presumed, and
we will not read a statutory scheme to take
the "extraordinary" step of foreclosing jurisdiction unless Congress's intent to do so is manifested by "clear and convincing" evidence.

19
Califano v. Sanders, 430 U.S. 99, 109 (1977).
Applying this standard when faced with statutes
that would render parties harmed by a constitutional
violation without a forum in which to seek redress,
the Court has consistently construed the statutes not
to preclude such claims. South Carolina v. Regan,
465 U.S. 367, 380 (1984) (holding that despite AntiInjunction Act's literal terms, it "cannot bar [an]
action" if as a result, the party "will be unable to
utilize any statutory procedure to contest the constitutionality of the government action); see also
Bartlett v. Bowen, 816 F.2d 695, 703 (D.C. Cir. 1987)
("[A] statutory provision precluding all judicial
review of constitutional issues removes from the
courts an essential judicial function under our
implied constitutional mandate of separation of
powers, and deprives an individual of an
independent forum for the adjudication of a claim of
constitutional right. We have little doubt that such a
limitation ... would be [an] unconstitutional
infringement of due process.") (emphasis in original).
Notably, a decision the Government contends
supports its position on the succession clause, Perry
Capital, confirmed this important principle of
statutory construction. The D.C. Circuit noted, in
discussing HERA's "anti-injunction clause," that:
[T]he [anti-injunction clause] only limits judicial remedies (barring injunctive, declaratory,
and other equitable relief) after a court determines that the actions taken fall within the
scope of statutory authority. The Act does not
prevent ... constitutional claims (none are
raised here) ....

20
864 F.3d at 613-14 (emphasis added).
In excluding "constitutional claims" from the antiinjunction clause's scope, the D.C. Circuit was referring to prior decisions from the same court, in which
it had held FIRREA's anti-injunction clause could
not preclude remedies for constitutional violations.
Nat'l Trust for Historic Pres. v. FDIC, 21 F.3d 469,
472 (1994). In that case, the court of appeals correctly held that although FIRREA's anti-injunction
clause "bar[s] courts from restraining or affecting the
exercise of powers or functions of the [FDIC] as a
conservator or a receiver," an exception to that general rule must be made where the FDIC "has acted
or proposes to act beyond, or contrary to, its ... constitutionally permitted ... powers ...." Id. at 470, 472
(per curiam opinion adopting concurrence of Wald, J.
as part of opinion) (emphasis added). That holding,
in turn, was based on the Court's decision in South
Carolina v. Regan, discussed supra, in which this
Court reiterated the principle that statutes should
not be construed to deny remedies for constitutional
violations.
The court of appeals in this case correctly recognized the same principle of statutory construction. It
held, with respect to Count IV of the shareholders'
complaint, in which the shareholders alleged that
the structure of FHFA violated the U.S. Constitution, that different principles of statutory construction apply because "[o]nly a 'heightened showing' in
the statute may be interpreted to 'deny any judicial
forum for a colorable constitutional claim."' App.,
55a-56a (quoting Webster v. Doe, 486 U.S. 592, 603
(1988)). Because the succession clause is devoid of
any such express language reflecting legislative

21
intent to foreclose a constitutional claim, the court of
appeals correctly decided that the succession clause
did not bar the shareholders' claim challenging the
constitutionality of the structure of FHFA. This
Court should reaffirm that principle with respect to
HERA's succession clause.
The Government argues that the succession
clause's use of broad words such as "any" and "all" in
providing that FHFA succeeds to "all rights, titles,
powers, and privileges of the insured depository
institution, and of any stockholder," "leaves no room"
for permitting derivative suits in any circumstances.
Gov. Br. 29-30. The use of such terms, however, does
not negate the importance of presumptions that
guide statutory construction. For example, in Small
v. United States, the Court considered whether a
statute imposing criminal penalties on a person in
possession of gun who was previously "convicted in
any court" applied where the convictions were
imposed by a foreign court. 544 U.S. 385, 388-89
(2005). The Court found that the statute did not
apply to foreign convictions. Despite the statute's use
of a broad phrase, "any court," the Court held the
statute's terms did not overcome the presumption
against extraterritorial application of statutes, given
the lack of any clear statement in the statute
providing for such application. Id.
Here, the presumption against the preclusion of
judicial remedies for constitutional violations
provides an even stronger reason to construe HERA
not to eliminate all judicial remedies for such claims.
HERA's terms, despite the use of the words "all" and
"any," reflect no clear and convincing Congressional
intent to preclude remedies for constitutional claims

22
such as the amici's takings and illegal exaction
claims. See also Bob Jones v. Simon, 416 U.S. 725,
731, 746 (1974) (indicating that the Tax Injunction
Act, which provides that "no suit for the purpose of
restraining the assessment or collection of any tax
shall be maintained in any court," could not be
applied to preclude all "access..to judicial review" for
a constitutional claim) (emphasis added; quotations
omitted).
Moreover, even if HERA's succession clause were
to meet the "heightened showing" required by
Webster, the result would be that HERA would be
unconstitutional as applied to the degree it
completely forecloses any remedy for a constitutional
claim.
Although this Court has suggested that
foreclosing judicial review of constitutional claims
may be possible upon a "clear and convincing"
showing of Congressional intent, it has never found a
statute to have met that standard. The Court has,
however, suggested that if such a statute did meet
that standard, the statute may then be
unconstitutional if it precludes access to any judicial
review. Bob Jones, 416 U.S. at 746 ("This is not a
case in which an aggrieved party has no access at all
to judicial review. Were that true, our conclusion
[that the statute is constitutional] might well be
different."); Bowen v. Mich. Academy of Family
Physicians, 476 U.S. 667, 671 n.12 (1986) ("Our
disposition avoids the serious constitutional question
that would arise if we construed § 1395ii to deny a
judicial forum for constitutional claims....")
(quotations omitted); Webster, 46 U.S. at 603 ("We
require this heightened showing in part to avoid the

23
serious constitutional question that would raise if a
federal statute were construed to deny any judicial
forum for a colorable constitutional claims.")
(quotations omitted). As the D.C. Circuit observed in
Bartlett:
It has become something of a time-honored
tradition for the Supreme Court and lower
federal courts to find that Congress did not
intend to preclude altogether judicial review of
constitutional claims in light of the serious
due process concerns such preclusion would
raise. These cases recognize and seek to
accommodate the venerable line of Supreme
Court cases that cast doubt on the
constitutionality of congressional preclusion of
judicial review of constitutional claims.
816 F.2d at 699. Although this Court has never
resolved the issue, lower courts and commentators
agree that whatever power Congress may have to
restrict the jurisdiction of particular courts, it
cannot, consistent with due process, preclude all
judicial review for a constitutional violation. Id. at
703 ("[A] statutory provision precluding all judicial
review of constitutional issues removes from the
courts an essential judicial function under our
implied constitutional mandate of separation of
powers, and deprives an individual of an
independent forum for the adjudication of a claim of
constitutional right. We have little doubt that such a
`limitation on the jurisdiction of both state and
federal courts to review the constitutionality of
federal [action] would be [an] unconstitutional'
infringement of due process.") (emphasis in original)
(quoting M. Reddish, FEDERAL JURISDICTION:

24
TENSIONS IN THE ALLOCATION OF JUDICIAL POWER 734 (1980)); Battaglia v. General Motors, 169 F.2d
254, 257 (2d Cir. 1948) ("[W]hile Congress has the
undoubted power to give, withhold, and restrict the
jurisdiction of courts other than the Supreme Court,
it must not exercise that power so as to deprive any
person of life, liberty, or property without due
process of law or to take private property without
just compensation."); P.R. Gunther, Congressional
Power to Curtail Federal Court Jurisdiction: An
Opinionated Guide to the Ongoing Debate, 36 Stan.
L. Rev. 895, 921 n.113 (1984) ("[A]ll agree that
Congress cannot bar all remedies for enforcing
federal constitutional rights."); J. Nowak, R. Rotunda
& J. Young, CONSTITUTIONAL LAW 41 (3d ed. 1986)
("[U]nder the due process clause of the fifth
amendment Congress may not exercise Article III
power over the jurisdiction of the courts in order to
deprive a party of a right created by the
Constitution.").
In short, Congress may not insulate the federal
government from liability for illegal exactions and
takings without just compensation in violation of the
Fifth Amendment of the U.S. Constitution by
precluding all judicial review of such claims.
Permitting the Government to transfer to itself the
conflicted decision whether to pursue the
constitutional claims against the Government arising
from the Third Amendment would effect this
impermissible outcome. It would negate by statute
rights guaranteed by the Constitution. This,
Congress may not do.
* * *

25
In sum, the text, structure, and legislative history
underlying HERA make clear that its "succession
clause" does not bar shareholder derivative claims
when there is a conflict of interest. And were this
Court to hold that HERA does bar derivative claims
under these circumstances, it would render HERA's
succession clause unconstitutional as applied to
amid 's takings and illegal exaction claims.
Therefore, in deciding the import of HERA's
succession clause, the Court should not construe the
clause in a way that would preclude judicial
remedies for constitutional claims.
CONCLUSION
For these reasons, the Court should decide that
shareholder claims arising from the Third
Amendment are derivative in nature and that they
are not barred by HERA's succession clause.

26
Respectfully submitted,
ROBERT C. SCHUBERT

Counsel of Record
NOAH M. SCHUBERT
SCHUBERT JONCKHEER
& KOLBE LLP
Three Embarcadero Center
Suite 1650
San Francisco, CA 94111
(415) 788-4220
rschubert@sjk.law

September 23, 2020

Counsel for Amid Curiae
Byndon Fisher, Bruce Reid,
and Erick Shipmon

